BECKER GALLAGHER
Briefs

Supreme Court of the United States
, United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of the Civil Justice Association of
California and the California Chamber of Commerce as
Amici Curiae in Support of Petitioners in 20-622,
Amazon.com, Inc., et al. v. Bernadean Rittmann, et al.,
was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 9th
day of December, 2020:
David B. Salmons
Morgan, Lewis & Bockius LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 739-3000
david.salmons@morganlewis.com
Counsel for Petitioners

Shannon Liss-Riordan
Lichten & Liss-Riordan, P.C.
729 Boylston Street
Suite 2000
Boston, MA 02116
(617) 994-5800
sliss@llrlaw.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Fred J. Hiestand
Counsel of Record

3418 Third Avenue, Suite 1
Sacramento, CA 95817
(916) 448-5100
fred@fjh-law.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 9, 2020.

D�a J. Wolt�
([\
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Nutary Public, State of Ohio
My Commission Expires
February 14, 2023

